DECEMBER 7, 2010
  AUDIT REPORT




                                                      OFFICE OF AUDITS




           PREPARING FOR THE SPACE SHUTTLE
               PROGRAM’S RETIREMENT:

A REVIEW OF NASA’S DISPOSITION OF INFORMATION
            TECHNOLOGY EQUIPMENT



                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-11-009 (ASSIGNMENT NO. A-09-018-01)
Final report released by:




Paul K. Martin
Inspector General




Acronyms

CIO          Chief Information Officer
DOD          Department of Defense
FY           Fiscal Year
IT           Information Technology
ITAR         International Traffic in Arms Regulations
NISPOM       National Industrial Security Program Operating Manual
NIST         National Institute of Standards and Technology
NPD          NASA Policy Directive
NPR          NASA Procedural Requirements
ODIN         Outsourcing Desktop Initiative for NASA
OIG          Office of Inspector General
USA          United Space Alliance


                                                                     REPORT NO. IG-11-009
DECEMBER 7, 2010




                                                                                              OVERVIEW

                          PREPARING FOR THE SPACE SHUTTLE
                              PROGRAM’S RETIREMENT:

           A REVIEW OF NASA’S DISPOSITION OF INFORMATION
                       TECHNOLOGY EQUIPMENT

                                                                                                The Issue

  After 38 years and more than 130 missions, the Space Shuttle Program is nearing
  retirement and therefore the disposition of Program equipment, including the Shuttles
  themselves, spare parts, and processing and information technology (IT) equipment,
  poses a significant challenge. Given the scope of these activities, the NASA Office of
  Inspector General (OIG) is reviewing NASA’s controls over the disposition of Program
  property. This report focuses on the disposition of Shuttle-related IT equipment, much of
  which contains sensitive information regarding Space Shuttle operations and maintenance
  procedures. 1

  NASA requires the sanitization of any electronic storage media that has ever contained
  NASA information before it is reassigned, transferred, or discarded. 2 Sanitization is the
  process of removing data from media and may involve the overwriting, degaussing, or
  destruction of the media so that it is impossible or nearly impossible to recover the data
  previously stored there. 3 In addition, NASA requires testing to verify that sanitization
  procedures are effective by periodically attempting to access and recover information
  from IT equipment that has been sanitized. 4

  During our audit, we discovered significant weaknesses in the sanitization and disposal
  processes for IT equipment at four NASA Centers – Kennedy and Johnson Space Centers
  and Ames and Langley Research Centers. Because of the criticality and time-sensitive



  1
      Sensitive information is information that requires protection due to the risk and magnitude of the harm or
      loss that could result from unauthorized release. Sensitive information includes, but is not limited to,
      personally identifiable information and export-controlled information.
  2
      NASA Procedural Requirements (NPR) 2810.1A, “Security of Information Technology,” May 16, 2006,
      Section I, “NASA IT Security Program.”
  3
      Degaussing is the process by which magnetic media is demagnetized, thereby deleting the information
      stored on the media.
  4
      NASA Standard Operating Procedure, ITS-SOP-0035, “Digital Media Sanitization,” September 15, 2008.



REPORT NO. IG-11-009
                                                                                                        OVERVIEW



     nature of these issues, we immediately brought them to the attention of NASA managers. 5
     In addition, we are reporting on these IT findings apart from our broader review of the
     disposition of all Shuttle-related property. We will report our findings on the disposition
     of other types of Shuttle property when we complete our audit work.

     Results

     We found significant weaknesses in the sanitization and disposition processes at each of
     the four Centers we reviewed. For example, we found that Kennedy managers were not
     notified when computers failed sanitization verification testing; that no verification
     testing was being performed at Johnson or Ames; and that Kennedy, Johnson, and Ames
     were using unapproved
     sanitization software. We also        Figure 1. IT Equipment Confiscated by OIG Personnel from
     found that while hard drives are                  Kennedy’s Property Disposal Facility
     destroyed at Langley before
     computers are released to the
     public, personnel did not
     properly account for or track the
     removed hard drives during the
     destruction process. In addition,
     we found computers at the
     Kennedy disposal facility that
     were being prepared for sale on
     which NASA Internet Protocol
     information was prominently
     displayed. Internet Protocol
     information could provide a
     hacker with the details needed to
     target specific NASA network
     assets and exploit weaknesses,
     resulting in the compromise of      Source: OIG photograph (June 11, 2010)

     sensitive information.

     We found that some of these weaknesses had resulted in the inappropriate release of
     NASA data. Specifically, Kennedy released to the public 10 computers that had failed
     verification testing and therefore still contained NASA data. We confiscated four other
     computers (pictured in Figure 1) that had also failed the testing but were still being
     prepared for release or sale from the Kennedy Reutilization, Recycling, and Marketing
     Facility (property disposal facility). When we tested the confiscated computers, we


     5
         The issues we identified at Kennedy required immediate attention. Accordingly, when we advised
         Kennedy personnel of our findings, they established a “Tiger Team” to review the disposition process and
         took immediate action to prevent unauthorized releases.



ii                                                                                        REPORT NO. IG-11-009
OVERVIEW



  discovered that one contained data subject to export control by the International Traffic in
  Arms Regulations (ITAR). 6

  Inadequate Oversight of Center-Level IT Sanitization Process. We attribute these
  deficiencies to the fact that NASA management did not adequately oversee the media
  sanitization process at the four Centers we visited. Specifically, we found that:

         •   appropriate Center or contractor personnel were not notified when computers
             failed sanitization testing,

         •   IT equipment was not properly accounted for or tracked during the disposition
             process, and

         •   excessed computers awaiting final disposition contained external markings that
             included NASA Internet Protocol information.

  Three of the Centers we visited used software to sanitize excess IT equipment, but only
  Kennedy had implemented a process to verify the effectiveness of its sanitization
  procedures as required by NASA policy. Kennedy’s verification process called for an
  independent contractor to test samples of excess IT equipment awaiting disposal at
  Kennedy’s property disposal facility. Between June 2009 and June 2010, the contractor
  tested 730 pieces of excess IT equipment and identified 14 computers that still contained
  Agency data. In accordance with the Kennedy verification process, the contractor labeled
  the failed computers and returned them to the property disposal facility. Although the
  contractor reported the failures to the contracting officer’s technical representative, no
  one informed the original owner of the equipment or personnel at the property disposal
  facility of the failures. Moreover, despite clear markings indicating that the computers
  had failed verification testing, no one took action to remove the remaining data from the
  computers or to prevent their sale.

  We attempted to determine the Agency’s risk exposure from the sale of the ten
  computers. We concluded that nine of the computers had been released for disposition by
  two NASA contractors. 7 One of the contractors provides base operations support for
  Kennedy and the other works on several NASA programs that involve sensitive space-
  related technologies. Although we could not definitively determine whether the nine
  computers that were sold actually contained sensitive information, our analysis of the
  computers we confiscated – one of which contained information subject to export control
  by ITAR – and the type of work performed by these contractors raises serious concerns
  about the information that may have remained on the computers.
  6
      ITAR governs the export of defense-related material and includes Space Shuttle-related technology. The
      regulation makes it unlawful to share such technology with anyone except a U.S. person unless a license
      and approval is obtained from the Department of State. ITAR violations can result in a fine,
      imprisonment, or both.
  7
      We determined that the other computer posed little risk because it had been used at a kiosk at Kennedy’s
      visitor center to provide general information to the public.



REPORT NO. IG-11-009                                                                                             iii
                                                                                         OVERVIEW



     In addition, we found a lack of accountability for excess hard drives at two of the four
     Centers. Most concerning was the discovery at Kennedy of hard drives, removed from
     excess computers, stored in an unsecured dumpster accessible to the public. We also
     found that Langley did not properly account for or track hard drives that had been
     removed from excess computers. Specifically, we identified control weaknesses that
     could allow Langley personnel to remove hard drives from excess computers without
     complying with procedures intended to track and account for the drives.

     We also found several pallets of computers (approximately 44 computers per pallet) at
     Kennedy’s property disposal facility prepared for sale that contained external markings
     with NASA Internet Protocol addresses. Releasing an Internet Protocol address outside
     of NASA’s custody is a potential IT security weakness that could enable unauthorized
     access to NASA’s internal computer network.

     Inadequacies in NASA Policy. IT management personnel at Kennedy, Johnson, and
     Ames did not ensure the proper sanitization of excess IT equipment before releasing it
     from NASA custody in part because NASA’s existing policies are inadequate. For
     example, NASA’s policies require verification testing to ensure that sanitization
     processes are effective. However, the policies do not include specific guidance regarding
     how and when such testing should be conducted.

     Failure to Comply with NASA Policy. IT and property management personnel at
     Kennedy, Johnson, and Ames were not complying and were unfamiliar with NASA
     sanitization policy. For example, we found that the primary Space Shuttle Program
     contractor at Kennedy, United Space Alliance (USA), was using unapproved software to
     sanitize its IT equipment. In addition, officials at Johnson and Ames had no verification
     testing process in place as required by NASA policy.

     The weaknesses we identified in NASA’s IT sanitization policy and procedures put
     NASA at risk of releasing sensitive information that could cause harm to its mission and
     violate Federal laws and regulations that protect such information. Accordingly, we
     recommended that NASA take the steps outlined below.

     Management Action

     We acknowledge the swift actions taken at Kennedy in response to the issues we raised
     with Center management during our audit. However, because we found weaknesses in
     the sanitization and disposition processes for IT equipment at the three other Centers we
     visited, we recommended that NASA’s Chief Information Officer (CIO) initiate a review
     of sanitization procedures at all Centers to identify deficiencies, take corrective actions,
     and share best practices. In addition, we recommended that the CIO coordinate with the
     Assistant Administrator for Strategic Infrastructure to ensure that Center property
     disposal offices have the requisite knowledge to ensure that excess IT equipment has been
     adequately sanitized before it is released to the public. We also recommended that the


iv                                                                          REPORT NO. IG-11-009
OVERVIEW



  CIO revise NASA’s IT disposition policy to include a sampling methodology for
  verifying sanitization of equipment, identify an acceptable risk level, and specify the
  percentage of equipment and frequency of testing needed to achieve the specified risk
  level. 8 In addition, we recommended that the Centers be required to document their
  sampling methodology, identify responsible officials in writing, and maintain testing
  records and results.

  In response to our recommendations, the CIO stated that NASA’s policies would be
  updated and a new handbook created by the third quarter of fiscal year 2011 (see
  Appendix C). However, overall we do not consider the proposed actions to be responsive
  to our recommendations. Moreover, we are troubled that management’s response does
  not reflect the sense of urgency we believe is required to address the serious security
  issues uncovered by our audit. Accordingly, we consider the recommendations to be
  unresolved.

  With respect to our recommendation to initiate a review of sanitization procedures at the
  Centers, the CIO stated that she would initiate a review of the procedures and issue a new
  handbook to replace existing policy. She asserted that the process of drafting this
  handbook would lead to the identification of deficiencies in current policy and
  procedures. The CIO also stated that NASA’s Office of Strategic Infrastructure could use
  the revised policy to amend existing contracts to compel contractor compliance with new
  Agency policy and include these requirements in all new contracts with vendors who
  conduct media sanitization.

  In our judgment, the CIO’s proposed actions do not address our concern that there may be
  unidentified weaknesses at Centers that were not part of our audit. Given what we found
  at the four Centers we visited, we believe that identifying weaknesses in sanitization
  procedures requires conducting on-site reviews of the processes and procedures the
  Centers are using to sanitize IT equipment. In our judgment, simply reviewing policy and
  procedures and then drafting a handbook will not be adequate to identify and correct
  potential serious deficiencies at the Centers.

  In response to our recommendation to coordinate with the Assistant Administrator for
  Strategic Infrastructure to ensure that Center property disposal personnel have the
  requisite knowledge to ensure that excess IT equipment has been adequately sanitized
  before being released to the public, the CIO again stated that NASA policy would be
  updated after which existing contracts would be amended. For its part, the Office of
  Strategic Infrastructure nonconcurred with the recommendation, stating that property
  disposal personnel are not responsible for ensuring adequate sanitization of equipment
  and in any event lack the expertise to do so.

  8
      Office of Management and Budget Circular No. A-130, Appendix III, “Security of Federal Automated
      Information Resources,” describes adequate security as security commensurate with risk. This risk
      includes both the likelihood of occurrence and the magnitude of harm resulting from the loss, misuse, or
      unauthorized access to or modification of information.



REPORT NO. IG-11-009                                                                                             v
                                                                                         OVERVIEW



     We find management’s response to this recommendation to be inadequate. First, revising
     policy does not necessarily equate to coordination between the two offices. Second,
     although we agree that property disposal personnel are not responsible for actually
     sanitizing equipment or ensuring that the sanitization process used is adequate, they are
     responsible for ensuring that policy and procedures are followed to ensure that, for
     example, IT equipment marked “fail” as shown in Figure 1 is not prepared for sale or
     released to the public.

     In response to our recommendations to revise disposition policy to include a sampling
     methodology for verifying sanitization of equipment, identify an acceptable risk level,
     and specify the percentage of equipment and frequency of testing needed to achieve that
     risk level, the CIO agreed to take all recommended steps except for developing a
     sampling methodology. She stated that a sampling methodology is neither required by
     the guidance cited in our audit nor cost-effective for NASA.

     While the guidance we cited does not explicitly require a sampling methodology, in our
     judgment establishing a sampling methodology is not only prudent but a recognized best
     practice. NASA policy already requires periodic testing (see Standard Operating
     Procedure, ITS-SOP-0035, “Digital Media Sanitization,” September 15, 2008), and other
     agencies have incorporated a sampling methodology in their procedures (see Department
     of Defense Memorandum, “Disposition of Unclassified DoD Computer Hard Drives,”
     June 4, 2001). In addition, when we contacted National Institute of Standards and
     Technology (NIST) personnel, they confirmed that a minimum sample size for
     sanitization verification should be 20 percent of total excess IT equipment. In light of our
     finding that the Agency’s current procedures failed to prevent the disposal of IT
     equipment containing sensitive information, we continue to urge NASA to develop a
     sampling methodology that conforms to the 20 percent standard recommended by NIST.




vi                                                                          REPORT NO. IG-11-009
DECEMBER 7, 2010




                                                        CONTENTS

  INTRODUCTION
      Background _________________________________________ 1
      Objectives __________________________________________ 4

  RESULTS
      NASA Did Not Ensure that Excess Information
        Technology Equipment Was Properly Sanitized ____________ 5

  APPENDIX A
      Scope and Methodology _______________________________ 17
      Review of Internal Controls ____________________________ 19
      Prior Coverage ______________________________________ 20

  APPENDIX B
      NASA Policy and Best Practice Guidance __________________ 21

  APPENDIX C
      Management Comments ______________________________ 23

  APPENDIX D
      Report Distribution ___________________________________ 27




REPORT NO. IG-11-009
DECEMBER 7, 2010




                                                                                     INTRODUCTION


Background

  NASA’s Space Shuttle Program transition and retirement effort is clearing the path for
  the future of spaceflight while preserving the legacy of one of the most successful human
  spaceflight programs in history. The transition and retirement activities are extensive and
  one of the largest such efforts the Agency has ever undertaken. In addition to the Shuttles
  themselves, the disposition of information technology (IT) equipment is a significant
  component of the Space Shuttle Program retirement effort. United Space Alliance
  (USA), the prime Space Shuttle contractor, expects a “bow wave” of computers needing
  disposition beginning in late 2010.

  Much of Shuttle-related property is located at and will be disposed of by personnel at
  Kennedy and Johnson Space Centers. Accordingly, we initiated and conducted most of
  our work at those two Centers. However, after we uncovered significant issues relating to
  the disposition of IT equipment at those Centers, we expanded our work to include a
  limited review of the disposition procedures in use at Ames and Langley Research
  Centers for IT equipment in an effort to determine the scope of the problem. 9

  NASA requires all electronic storage media that has ever contained NASA information to
  undergo a sanitization process before it is reassigned, transferred, or discarded. 10
  Sanitization is the process of removing data from the media to the degree that there is
  reasonable assurance that the data cannot be retrieved or reconstructed. 11 NASA requires
  the use of one of three approved software products to sanitize IT equipment: Secure
  Erase, Darik’s Boot and Nuke (DBAN), and WipeDrive/WipeDrive Pro. 12 In addition,




  9
      Contractors that are located on or near NASA Centers frequently use the disposition procedures in place at
      the Center to dispose of their Government-furnished IT equipment. Consequently, we also reviewed the
      sanitization procedures in place at several of these contractors whose IT equipment was likely to contain
      Space Shuttle Program data, including USA and Lockheed Martin’s Outsourcing Desktop Initiative for
      NASA (ODIN).
  10
       NASA Standard Operating Procedure, ITS-SOP-0035, “Digital Media Sanitization,” September 15,
       2008.
  11
       Sanitization methods include overwriting or wiping, degaussing (the process of demagnetizing magnetic
       media), and destruction of the storage media.
  12
       NPR 1400.1D “NASA Directives Procedural Requirements, with Change 5,” February 18, 2007, allows
       the responsible Headquarters office for the Agency-level directive to waive requirements contained in its
       directives. None of the Centers or contractors we visited had requested or received such a waiver relating
       to sanitization software.



REPORT NO. IG-11-009                                                                                                1
                                                                                                   INTRODUCTION



    NASA requires verification testing of equipment that has been sanitized to ensure that
    sanitization procedures are effective. 13,14

    NPR 4300.1A, “NASA Personal Property Disposal Procedural Requirements
    (Revalidated 2/17/06 with Change 1),” provides guidance for the utilization and disposal
    management of NASA-owned excess, surplus, and exchange/sale property, including IT
    equipment. NASA’s Logistics Division, within the Office of Strategic Infrastructure, has
    the Agency-level responsibility to ensure Centers comply with the Agency policy. The
    NPR states that the Center Director is the official responsible for appointing a Property
    Disposal Officer to ensure the proper use, transfer, sale, or other disposition of NASA
    personal property. The NPR encourages NASA Centers to customize disposal
    management procedures to meet local requirements. Accordingly, disposal policies and
    procedures vary among NASA Centers. The following sections summarize disposition
    procedures at the four Centers we visited.

    IT Disposition Process at Kennedy. During the course of the audit, we noted that
    Kennedy did not have a Center-specific written policy covering the IT equipment
    disposition process, but rather generally followed applicable NASA directives. 15 At
    Kennedy, property users are responsible for sanitizing excess IT equipment before
    sending it to the Center’s Reutilization, Recycling, and Marketing Facility (property
    disposal facility). Depending on the user, sanitization is accomplished using various
    software products, not all of which have been approved by NASA. A contractor, Abacus
    Technology Corporation, conducts verification testing of users’ sanitization efforts.
    Property disposal personnel periodically select and deliver to Abacus computers that have
    undergone sanitization. Abacus then attempts to recover data from these computers to
    test the effectiveness of the sanitization process. If Abacus personnel are able to recover
    data from a “sanitized” computer, they attach a label to the outside of the computer with
    the word “fail” written in large letters with red ink. Abacus returns all computers it tests,
    including those that have failed, to the property disposal facility. Other than affixing the
    “fail” label to the equipment, Abacus was not required to and did not notify either the
    property users or disposal personnel about computers that had failed its testing
    procedures.



    13
         Verification involves periodically attempting to access and recover information from a sample of IT
         equipment that has undergone sanitization.
    14
         NASA’s Standard Operating Procedure incorporates practices set forth in National Institute of Standards
         and Technology (NIST) Special Publication 800-88, “Guidelines for Media Sanitization,” September
         2006, and Department of Defense (DOD) “National Industrial Security Program Operating Manual”
         (NISPOM), 5220.22-M, February 28, 2006, although the Procedure incorrectly referenced it as “DOD
         5520.22-M.” According to NIST, organizations should sanitize IT equipment using approved software,
         techniques, and procedures, as well as track, document, and verify IT equipment sanitization and
         destruction actions and periodically test sanitization equipment and procedures.
    15
         However, on October 13, 2010, Kennedy issued disposition policy, “Personal Property Transfer/Excess
         Process” (KDP-KSC-P-3716).



2                                                                                         REPORT NO. IG-11-009
INTRODUCTION



  IT Disposition Process at Johnson. Johnson has a Center-specific disposal policy,
  requiring that computers, disk drives, servers, and related IT equipment be wiped
  (sanitized) of all stored memory data to ensure no sensitive or privacy information
  remains (Work Instruction 4300.1, “JSC [Johnson Space Center] Instructions for Excess
  and Disposal of Government Property,” September 28, 2009). 16 Depending on the type
  of property, a user electronically notifies the appropriate property custodian through
  NASA’s property database system that they have excess IT equipment or the user
  completes Form JF 25A, “Request for Turn-In or Issue of Excess Property.” Property
  custodians ensure that the request includes all required information and indicate approval
  of the disposition request by placing a label on the equipment indicating that it is excess.
  While the Property Disposal Officer manages the final disposal function, the property
  user may wipe the equipment prior to delivering it to the Property Disposal Officer. In
  such instances, the user is supposed to tag the computer as having been wiped.
  Equipment that has been wiped by the user is not re-wiped or otherwise tested by disposal
  warehouse personnel.

  IT Disposition Process at Ames. Ames has a Center-specific IT disposal policy that
  requires sanitizing all internal hard drives and storage devices before disposal or removal
  (Ames Procedural Requirements 2815.1, “Excessing Government Owned Computer,”
  July 26, 2010). At Ames, the user of the IT equipment initiates a request to the
  appropriate system administrator to have the equipment sanitized and then requests that
  the responsible Center property custodian dispose of the sanitized equipment. The policy
  states that system administrators are to overwrite data using DOD-compliant sanitizing
  software and provide the property custodian with the date the overwriting was performed,
  the name of the sanitization software used, and the name of the system administrator who
  performed the overwrite. The property custodian collects all of the information required
  for disposal and validates that the information regarding sanitization is correct before
  sending the equipment to the Property Disposal Officer. The Property Disposal Officer
  validates that the appropriate disposal documents are submitted and complete and stores
  the equipment until final disposition. In addition, IT Security Operations personnel are
  required to conduct random reviews of excess computers to ensure they are clear of
  NASA-related information, and Protective Services Office and Information Technologies
  Security Office personnel are required to perform periodic audits of the process and
  conduct joint investigations of compliance irregularities. However, these offices have not
  performed a review or audit in the past 2 years.

  IT Disposition Process at Langley. Langley sanitizes excess computers by removing
  their hard drives. Tessada & Associates, Inc., a support contractor, processes the Center’s
  excess computers according to the contractor’s Procedure No. 4.5.2-1, “Processing
  Computer Equipment for Donation,” April 1, 2002. The procedure requires that a
  computer technician remove the hard drives from computers submitted for disposition
  16
       Sensitive information is information that requires protection due to the risk and magnitude of the harm or
       loss that could result from unauthorized release. Sensitive information includes, but is not limited to,
       personally identifiable information and export-controlled information.



REPORT NO. IG-11-009                                                                                                3
                                                                                               INTRODUCTION



    and transport the hard drives to the “steam plant” for destruction via incineration. The
    procedure also requires that the computer technician maintain a daily production log,
    which serves as a record of computers from which hard drives have been removed.
    However, no log is maintained of the hard drives delivered to the steam plant or of the
    verification of their destruction.

    The following table summarizes the disposition procedures in place at the four Centers
    we visited.


                   Summary of Disposition Procedures at Four NASA Centers


                                 Center-Specific         Sanitization           Verification
                Center                Policy              Software                Process
                Kennedy                 no1              unapproved2                yes
                Johnson                 yes              unapproved2                 no
                Ames                    yes              unapproved2                 no
                Langley                 yes             not applicable         not applicable
            1
              Prior to release of this report, Kennedy issued “Personal Property Transfer/Excess
              Process,” (KDP-KSP-P-3716) on October 13, 2010.
            2
              We identified specific instances in which unapproved software was used. This does
              not mean that all sanitization at the Center was done with unapproved software.



Objectives

    This report stems from a larger audit examining NASA’s controls over the disposition of
    various types of Space Shuttle Program property as the Program nears retirement. Our
    overall objective is to determine whether NASA has implemented effective controls over
    property disposition. During the course of our audit, we discovered weaknesses in
    NASA’s process for the disposition of IT equipment that required immediate corrective
    action by NASA management. Accordingly, we promptly notified management of these
    weaknesses and are providing this separate report concerning our IT-related findings. We
    will provide a report on our audit results relating to the disposition of other types of
    Shuttle-related property when we have completed the remainder of our audit work. We
    also reviewed internal controls related to the audit objective. See Appendix A for details
    of the audit’s scope and methodology, our review of internal controls, and a list of prior
    coverage.




4                                                                                   REPORT NO. IG-11-009
RESULTS




                                          NASA DID NOT ENSURE THAT EXCESS
                                        INFORMATION TECHNOLOGY EQUIPMENT
                                                  WAS PROPERLY SANITIZED

             We found that when disposing of excess information technology (IT) equipment,
             NASA did not consistently protect sensitive information from unauthorized release.
             This occurred because NASA managers are not adequately overseeing sanitization
             and disposition processes, NASA’s sanitization policies are incomplete, and
             responsible personnel did not consistently follow or were unaware of applicable
             policy.


NASA Policy and Industry Best Practices

  NASA has developed policies to protect information from unauthorized disclosure,
  destruction, or modification while the information is being collected, processed,
  transmitted, stored, or disseminated. The Office of the Chief Information Officer, which
  is responsible for unclassified information, and the Office of Protective Services, which is
  responsible for classified information, share responsibility for Agency information
  security. In addition, the National Institute of Standards and Technology (NIST) and the
  Department of Defense (DOD) have published industry guidelines specific to the
  sanitization of IT equipment. See Appendix B for a listing of applicable sanitization
  policies.


NASA Is Not Properly Sanitizing IT Equipment

  NASA did not ensure the proper sanitization of excess IT equipment before releasing it
  outside of Agency control. Three of the four Centers we reviewed were using software to
  sanitize equipment prior to disposition, and we found that only Kennedy had a
  verification testing process in place as required by NASA policy. 17 However, we
  discovered several flaws in Kennedy’s verification process that resulted in the release or
  near release of 14 computers that had failed verification testing to ensure the machines
  did not contain sensitive information.

  Between June 2009 and June 2010, Kennedy contractor personnel tested 730 pieces of IT
  equipment to verify proper sanitization. Fourteen of these pieces of IT equipment, were
  computers that failed testing, indicating that they still contained NASA data. Ten of the
  failed computers were sold to the public with no further remedial action having been

  17
       Such testing was not required at Langley because at that Center hard drives were removed from
       computers before they were dispositioned.



REPORT NO. IG-11-009                                                                                   5
                                                                                                            RESULTS



    taken to ensure that all NASA data had been removed. We confiscated the four other
    computers during our audit before they could be sold. When we examined these four
    computers, we discovered that one contained Space Shuttle-related technology subject to
    export control by the International Traffic in Arms Regulations (ITAR). 18 Another
    computer’s hard drive had been removed after undergoing sanitization testing, but was
    not accounted for. The remaining two computers contained corrupted and unreadable
    data. 19

    We were not able to retrieve the hard drives of the ten computers that were sold to the
    public after failing verification testing. Accordingly, we could not definitively determine
    whether they contained sensitive information. However, we were able to determine
    where at Kennedy the computers had been used before being excessed. One of the
    computers was used by visitors at a public kiosk in the Kennedy visitor center and
    therefore was unlikely to have contained sensitive data. The other nine computers had
    been dispositioned by contractors that either provide base operations support for Kennedy
    or are involved with NASA programs that involve sensitive space-related technologies.
    We interviewed the contractor personnel who excessed the nine computers, and they told
    us that before sending five of the nine to the disposition facility, they removed and
    replaced their original hard drives. Nevertheless, because sanitization testing indicated
    that the computers still contained some NASA data, we are concerned about the
    information that may have remained on the computers. 20

    Notification of Failed Computers. We determined that Kennedy did not have a process
    in place to notify IT security officials or the property user when a computer failed
    sanitization testing. As noted earlier, Abacus performs the verification testing and places
    a failed label on the outside of any computer that does not pass its testing procedures.
    Abacus returns all the computers it tests, including those that have failed, to Kennedy’s
    property disposal facility and, apart from affixing the label to the computer, does not
    notify either the property users or IT security personnel of any failures. USA’s Director
    of IT informed us that USA was last notified of a failed computer 7 years ago. The
    Kennedy IT Security Manager also confirmed that he had not been notified of any failed
    computers recently.

    In May 2010, we examined a pallet of 49 computers that had been delivered to Abacus
    for verification testing. Each of those computers had a label certifying that the disposing
    organization had sanitized the hard drives. Abacus’ verification testing confirmed that
    the hard drives were wiped. We falsely marked one of these computers with a “fail” label

    18
         ITAR governs the export of defense-related articles and information, such as Space Shuttle-related
         technology, and makes it unlawful to share that technology with anyone except a U.S. person without
         obtaining a license and approval from the Department of State. ITAR violations can result in fines,
         imprisonment, or both.
    19
         Although sophisticated software programs can potentially “fix” corrupt or unreadable data, the risk that
         someone could obtain sensitive information from the corrupted computers is relatively low.
    20
         The testing indicated only that some data remained, not the sensitivity of that data.



6                                                                                            REPORT NO. IG-11-009
RESULTS



  and placed it in the middle of the pallet for return to the property disposal facility. We
  subsequently located that pallet at the disposal location and found that the “failed”
  computer was being prepared for sale along with the other computers on the pallet. When
  we contacted Kennedy IT Security and USA personnel, they informed us that they were
  not aware that a computer on the pallet had been marked as having failed verification
  testing. In our judgment, the contractor’s practice of placing a failed label on equipment
  without notifying responsible personnel about the failure increases the risk that NASA
  will inadvertently release equipment containing sensitive information.

  Selection Process Not Statistically Valid. Kennedy’s property disposal personnel did
  not have a statistically valid process for selecting computers for validation testing.
  Specifically, Kennedy had no guidelines for when or how to select a sample for testing. 21
  Rather, Kennedy’s property disposal personnel selected a pallet of sanitized equipment
  for testing when they determined that a “sufficient” number of pallets had been filled.
  However, they could not determine what percentage of excess IT equipment the selected
  pallets represented and therefore had no assurance that their sample was statistically
  valid.

  Lack of Any Verification Process. As noted earlier, Johnson and Ames did not have a
  verification process to test previously sanitized IT equipment. Without verification
  testing, those Centers have no assurance that their sanitization process is adequate and
  effective. Personnel at both Centers told us that they were unaware that NASA policy
  requires verification testing. 22


Inadequate Oversight of Disposition Processes

  Management at each of the Centers we visited did not adequately oversee IT disposition
  procedures to prevent the improper release of Agency data. Specifically, we found that IT
  equipment was not properly accounted for or tracked during the disposition process and
  that excessed computers submitted for disposition had external IT markings that included
  NASA Internet Protocol information. Failing to properly account for hard drives during
  the disposition process increases the risk that NASA will inadvertently release IT
  equipment that contains sensitive information. In addition, the release of Internet
  Protocol information could lead to unauthorized access to NASA’s internal networks.

  Accountability of Removed Hard Drives. Kennedy and Langley did not properly
  account for and track hard drives that were removed from excess computers. We


  21
       As noted previously, during the audit, Kennedy followed NASA’s sanitization policy that does not
       address sample selection. In addition, Kennedy’s recently released policy does not address sample
       selection.
  22
       Ames has a Center-specific policy that requires some verification review and testing; however, no such
       testing has been performed in the last 2 years.



REPORT NO. IG-11-009                                                                                            7
                                                                                        RESULTS



    identified instances at Kennedy and Langley of excess computers arriving at the disposal
    site without a hard drive but with no documentation to account for the missing drive.

    IT personnel at Kennedy stated that when they cannot sanitize a hard drive using
    available software, they remove the drive from the computer and send it to the property
    disposal facility for destruction. They told us that the removed hard drives have no
    markings linking them to the computers from which they were removed and that the hard
    drives are not tracked once they are removed.

    Kennedy disposal personnel informed us that they receive hard drives in lots that
    sometimes contain hundreds of drives. They stated that they track the hard drives by lot
    upon arrival at the warehouse, but had no way to determine which drives belonged to
    which computers. Moreover, they informed us and we observed that the removed hard
    drives were stored in an unsecured dumpster at the property disposal facility, which is
    easily accessible to non-NASA personnel during normal working hours. After hours,
    only a locked fence protects the dumpster (see Figure 2).




8                                                                         REPORT NO. IG-11-009
RESULTS




                Figure 2. Hard Drives Stored in Publicly Accessible Dumpster




  Source: OIG photographs (June 9, 2010)




REPORT NO. IG-11-009                                                           9
                                                                                             RESULTS



     We found that at Langley employees are permitted, with management approval, to
     remove and retain their hard drives prior to dispositioning excess computers. Employees
     are required to document such removals on NASA Form 1617, “Request for
     Cannibalization/Modification of Controlled Equipment,” and a copy of the form is to be
     attached to the excess computer before it is sent to the disposition contractor. If a
     computer arrives without a hard drive and does not have the requisite form, the contractor
     is supposed to suspend disposition of the computer. However, the disposal supervisor
     told us that contractor personnel do not suspend disposition when computers arrive
     without the proper paperwork. Consequently, Langley cannot ensure that it is accounting
     for all hard drives. Due to the sensitivity of data that hard drives may contain, NASA
     should ensure that disposition procedures adequately account for and track all hard drives
     removed from excess computers.

     IT Equipment Submitted for Disposal with Sensitive Markings. During our review of
     Kennedy’s disposal processes, we identified several pallets of computers being prepared
     for disposition on which NASA Internet Protocol addresses were easily visible (see
     Figure 3).
                                  Figure 3. Computer Marked with Internet Protocol Address
     An Internet
     Protocol address
     provides a
     numerical
     description of the
     location of
     networked
     computers and
     distinguishes one
     computer from
     another on the
     Internet. It is
     similar to a street
     address or a
     phone number in
     that it provides a
     specific location
     to a specific         Source: OIG photograph (April 14, 2010)
     computer that is
     on the Internet the same way a street address identifies the location of a specific house or
     a phone number identifies a specific phone. Release of NASA Internet Protocol
     addresses is a potential security weakness because these addresses could provide a hacker
     a means to gain unauthorized access to NASA’s internal network. Knowing a specific
     Internet Protocol address allows a hacker to target a particular computer, test the system
     for vulnerabilities, and possibly load malicious software programs or access information
     on the computer or network.


10                                                                           REPORT NO. IG-11-009
RESULTS



Inadequate NASA Policy on IT Sanitization

  NASA’s IT sanitization policy is incomplete and does not provide clear guidance on how
  to ensure IT equipment is properly sanitized before leaving NASA custody.
  NPR 2810.1A, “Security of Information Technology,” May 16, 2006, states that all
  excess IT equipment is to be properly sanitized during the disposal process. The NPR
  also requires all NASA information system owners to conduct the appropriate reviews
  and tests on excess IT equipment, as called for by NIST. The NPR further states that
  NASA computer support and operations are to ensure that all excessed IT property is
  properly sanitized following the current NASA memorandum on the Sanitization of
  NASA Equipment prior to leaving NASA’s custody. However, the NPR does not
  provide any further identifying information regarding the NASA memorandum it
  mentions, such as the date of the memorandum or a Standard Operating Procedure
  number. The Deputy Chief Information Officer for IT Security stated that the current
  NASA memorandum on the sanitization of equipment is NASA Standard Operating
  Procedure, ITS-SOP-0035, “Digital Media Sanitization,” September 15, 2008.

  NASA’s Standard Operating Procedure states that “it is necessary to periodically test the
  sanitization equipment and procedures to ensure they are performing as intended.”
  However, NASA policy does not establish how excess IT equipment should be selected
  for testing, describe a representative sample, or define an acceptable level of risk for
  failed computers. 23 Establishing an acceptable risk level should include mitigation
  strategies that define how much additional testing is required once a piece of IT
  equipment or a representative sample of equipment fails sanitization testing. For
  example, if the failure rate exceeds a certain percentage of the tested equipment,
  additional testing of the dispositioned equipment should be required.

  DOD has established requirements for testing a representative sample of IT equipment to
  verify proper sanitization. The DOD memorandum, “Disposition of Unclassified DoD
  Computer Hard Drives,” June 4, 2001, specifies methods and procedures for sanitization,
  provides guidance on the disposition of hard drives, and requires that 20 percent of
  sanitized hard drives be examined as a representative sample. We also contacted NIST IT
  security specialists to inquire about industry best practices for verification sampling, and
  they responded that a minimum sample size for sanitization verification should be
  20 percent of total excess IT equipment. 24


  23
       Office of Management and Budget Circular A-130, Appendix III, describes adequate security as security
       commensurate with risk. This risk includes both the likelihood of occurrence and the magnitude of harm
       resulting from the loss, misuse, or unauthorized access to or modification of information.
  24
       NIST Special Publication 800-88, which is referenced in the NASA procedure, does not discuss sample
       size or the frequency of sanitization testing. However, it does state that “A representative sampling of
       media should be tested for proper sanitization to assure the organization that proper protection is
       maintained. Verification of the process should be conducted by personnel without a stake in any part of
       the process.” As a result of our inquiry, NIST IT security personnel said they will evaluate whether this
       information should be included in the next update of the publication scheduled for release in FY 2011.



REPORT NO. IG-11-009                                                                                               11
                                                                                          RESULTS



     NASA can decrease the risk of inadvertently releasing IT equipment that contains
     sensitive information by revising its policy and procedures and referencing those from
     other agencies that provide best practices. NASA can also improve its policy by
     including instructions for sampling IT equipment for sanitization testing. The procedures
     should explain how to develop a sampling plan and establish a minimum percentage of
     sanitized IT equipment to be tested. In addition, NASA policy should define the
     acceptable level of risk before additional mitigation strategies are implemented.


Failure to Use Approved Software

     Contractor personnel involved in the IT sanitization and disposition process at Kennedy,
     Johnson, and Ames were not sufficiently familiar with and did not follow NASA
     sanitization policy. Specifically, we identified instances at each of these three Centers
     where personnel used unapproved software to sanitize IT equipment.

     Use of Unapproved Sanitization Software. NASA’s Standard Operating Procedure
     lists only three approved sanitization software products: Secure Erase, Darik’s Boot and
     Nuke (DBAN), and WipeDrive/WipeDrive Pro. However, we found instances at
     Kennedy, Johnson, and Ames of personnel using or recommending sanitization software
     not on the NASA-approved list:

        •   USA used DataGone by Symantec to sanitize excess IT equipment at both
            Kennedy and Johnson. DataGone has not been approved by NASA or certified
            for use by other Federal agencies, including DOD and the National Security
            Agency.

        •   Johnson’s disposition contractor, L&M Technologies, Inc., used both a NASA-
            approved software program (DBAN) and Active@KillDisk, which is not
            approved by NASA. When we informed L&M Technologies of the requirements
            in NASA’s Standard Operating Procedure, it stopped using the unapproved
            software.

        •   The Ames IT Security Manager recommended that Center personnel use a
            sanitization software program called BCwipe, which is DOD-compliant and
            therefore permissible for use under Ames’ procedures. However, it is not on the
            NASA list of approved software.

     IT personnel at each of the three Centers stated that they were not aware that some of the
     sanitization software they were using had not been approved by NASA. The use of
     unapproved software is a significant concern because unapproved software was used on
     some of the computers at Kennedy that failed verification testing.




12                                                                          REPORT NO. IG-11-009
RESULTS



Management Actions Taken during the Audit

   We worked closely with Center IT security personnel during our audit so that they could
   take action to remedy the weaknesses we identified as quickly as possible. After we
   shared our findings with Center managers, the Kennedy IT Security Manager established
   a “Tiger Team” with participants from key Center organizations and major contractors
   involved in the IT disposition process to review and improve the sanitization and
   disposition processes.

   The Kennedy contracting officer’s technical representative for the Abacus contract said
   her staff will work with Center Operations and IT Security personnel to document the
   number of computers processed by the property disposal facility, which will allow
   Kennedy to determine how many of those computers need to undergo sanitization testing
   to meet a 20 percent minimum validation requirement.


Conclusion

   NASA’s information systems capture, process, and store significant amounts of data
   including sensitive information. Without proper sanitization of those systems, the
   Agency is at risk of releasing sensitive information that could inhibit NASA’s ability to
   accomplish its mission as well as violate privacy and export control laws. For these
   reasons, strong controls over the disposition and sanitization processes are required to
   mitigate the risk of unauthorized disclosure. As Space Shuttle Program transition and
   retirement activities increase, significantly more IT equipment will enter the disposal
   pipeline and it is imperative that NASA revise its policies and procedures to protect its
   data from unauthorized release. Therefore, we believe that immediate Agency-wide
   attention to the proper disposition of IT equipment is required.


Recommendations, Management’s Response, and Evaluation of
  Management’s Response

We acknowledge the actions taken at Kennedy in response to the issues we raised during our
audit. However, as discussed in this report we also found weaknesses in the sanitization and
disposition processes for IT equipment at the three other Centers we visited. Consequently,
we recommended that NASA’s Chief Information Officer (CIO) take the following actions:

Recommendation 1. Increase oversight efforts by initiating a review of sanitization
procedures across all NASA Centers to identify deficiencies, share best practices, and take
corrective action.

   Management’s Response. The CIO stated that a review of NASA’s media sanitization
   policy and procedures would be initiated and used to update NPR 2810.1 and develop a


REPORT NO. IG-11-009                                                                           13
                                                                                            RESULTS



     new IT Security handbook to replace NASA’s Standard Operating Procedure (ITS-SOP-
     0035). The CIO also stated that the Office of Strategic Infrastructure could use this
     policy to take corrective action by amending existing contracts to compel contractor
     compliance and include the new requirements in all new contracts with vendors who
     conduct media sanitization for NASA. She indicated that NASA expected to complete
     the proposed action in the third quarter of fiscal year (FY) 2011.

     Evaluation of Management’s Response. In our judgment, the CIO’s comments lack the
     urgency required to address the serious weaknesses identified in our report. We do not
     believe that it is either prudent or responsible for the Agency to wait for the conclusion of
     a lengthy document review process before addressing these issues. Instead, the Agency
     should develop a plan that includes an expedited physical review of the sanitization
     procedures at all Centers and a course of action to quickly implement necessary corrective
     action. Accordingly, we consider this recommendation to be unresolved.

Recommendation 2. Coordinate with the Assistant Administrator for Strategic
Infrastructure to ensure Center Property Disposal Officers have the knowledge necessary to
ensure that dispositioned IT equipment has been adequately sanitized prior to release to the
public.

     Management’s Response. The CIO stated that NASA policy will be updated to reflect
     mandatory and exclusive use of approved software and tools for media sanitization.
     Additionally, the CIO stated that the Office for Strategic Infrastructure can use the
     updated policy to amend existing contracts to compel contractor compliance. She
     indicated that NASA expects to complete the proposed action in the third quarter of
     FY 2011. The Office of Strategic Infrastructure nonconcurred with our recommendation,
     stating that Property Disposal Officers do not have the technical expertise, training, or
     knowledge to ensure adequate sanitization of IT equipment and are only responsible for
     obtaining documentation that someone else has certified that each computer entering the
     disposal process has been adequately sanitized.

     Evaluation of Management’s Response. Neither the CIO nor the Office of Strategic
     Infrastructure adequately addressed the concerns that prompted our recommendation.
     Revising policy and relying on another office to interpret that policy and implement
     appropriate corrective action does not equate to coordination. In our view, the CIO
     should work closely with the Office of Strategic Infrastructure to determine the best
     course of action to improve the control weaknesses we identified. Similarly, although we
     agree that Property Disposal Officers are not personally responsible for sanitizing
     equipment, they are the last line of defense in preventing the unauthorized release of
     NASA data. NIST Special Publication 800-88 provides that “Organizations should
     ensure that property management officials are included in documenting the media
     sanitization process in order to establish proper accountability of equipment and
     inventory control.” Accordingly, we believe that the Agency should ensure that property
     disposal personnel are adequately trained to ensure, for example, that IT equipment



14                                                                           REPORT NO. IG-11-009
RESULTS



  marked “fail” is not released to the public. In light of management’s response, we
  consider this recommendation to be unresolved.

Recommendation 3. Develop a sampling methodology for verification testing that meets or
exceeds the minimum requirements established by best practices, to include

  a. identifying NASA’s acceptable risk level for excess IT equipment;

  b. specifying the percentage of equipment to be tested and the frequency of testing
     needed to satisfy NASA’s risk determination; and

  c. requiring each Center to document its sampling methodology, identify in writing
     responsible officials, and maintain records of testing results.

In response to management’s comments, we revised the language of this recommendation
slightly to make clear that the sampling methodology should be based on best practices
rather than NIST and NISPOM requirements. 25

  Management’s Response. The CIO partially concurred with our original
  recommendation, stating that because NIST and NISPOM do not mandate Federal
  agencies to develop a sampling methodology or conduct verification testing NASA would
  not sample or conduct testing in accordance with those entities’ standards. The CIO
  further stated that the Agency could develop a sampling methodology that aligns with the
  International Standard’s Organizations 2859 standard, but indicated that doing so would
  be too burdensome in terms of costs and paperwork. The CIO expressed the view that
  rather than adopting this burdensome standard, the Agency would be better off requiring
  that all electronic storage media be destroyed. The CIO stated that the new IT Security
  handbook will include NASA’s acceptable risk level for excess IT equipment, articulate a
  less burdensome verification policy, and designate responsible officials to ensure that
  NASA policy is followed. Management expects to complete the proposed action in the
  third quarter of FY 2011.

  Evaluation of Management’s Response. We concede that NIST policy and NISPOM
  do not explicitly establish minimum requirements for sampling methodology in regard to
  verification testing; therefore, we revised the recommendation to cite “best practices”
  instead. Nevertheless, NISPOM does require the security authority to issue instructions
  on sanitization and DOD has implemented this requirement by requiring that 20 percent
  of sanitized hard drives be examined. In addition, personnel in NIST’s IT Security office
  informed us that a minimum sample size for sanitization verification should be 20 percent
  of total excess IT equipment and stated that NIST is considering revising its policy to
  specify a 20 percent minimum sample size.


  25
       DOD “National Industrial Security Program Operating Manual” (NISPOM), 5220.22-M, February 28,
       2006.



REPORT NO. IG-11-009                                                                                   15
                                                                                         RESULTS



     The CIO’s contention that developing and implementing a sampling methodology would
     be onerous is based upon the guidance provided in International Standard’s Organizations
     2859 standard. We agree this guidance appears to be more burdensome than simply
     establishing a minimum sample size of 20 percent. However, in light of our finding that
     the minimal verification testing performed by the Agency failed to prevent the disposal of
     IT equipment containing sensitive information, we continue to believe that NASA should
     develop a sampling methodology for verification testing that meets or exceeds the
     requirements and best practices established by DOD and NIST. Accordingly, we consider
     this recommendation to be unresolved.

Recommendation 4. Update NPR 2810.1A and ITS-SOP-0035 to include the sampling
methodologies developed in response to Recommendation 3 and from other appropriate
references.

     Management’s Response. The CIO partially concurred with the recommendation and
     stated that the updated NPR and new IT Security handbook are being drafted. However,
     the CIO also stated that the new policy will not address a sampling methodology because
     such a requirement would produce an onerous burden in terms of cost and bureaucratic
     paperwork. Management expects to complete the proposed action in the third quarter of
     FY 2011.

     Evaluation of Management’s Response. As previously stated, in our judgment a
     sampling methodology is prudent and should be included in NASA’s new policies.
     Accordingly, we consider this recommendation to be unresolved.




16                                                                         REPORT NO. IG-11-009
APPENDIXES




                                                                           APPENDIX A


Scope and Methodology

  We performed this audit from October 2009 through October 2010 in accordance with
  generally accepted government auditing standards. Those standards require that we plan
  and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
  basis for our findings and conclusions based on our audit objectives. We believe that the
  evidence obtained provides a reasonable basis for our findings and conclusions based on
  our audit objectives.

  We interviewed the Kennedy IT Security Manager, Information Systems Division and
  Communications Infrastructure Services Division Chiefs, contracting officer’s technical
  representatives, IT project managers and specialists, and the Kennedy Transition and
  Retirement Manager to obtain an understanding of the procedures in place at NASA for
  the sanitization of IT storage media and for safeguarding against the release of sensitive
  data to the public through the sale of excess IT equipment. We also interviewed USA IT
  managers and specialists, Abacus IT managers and analysts, and property disposal
  personnel at Kennedy’s property disposal facility to determine their additional policies
  and procedures for sanitization, testing, reviews and audits, and disposal of excess IT
  equipment.

  At Johnson, we interviewed Implemetrics Incorporated’s President and Information
  Technology Specialist to obtain an understanding of the processes the contractor uses to
  sanitize excess IT equipment for the Center. To obtain an understanding of USA’s
  sanitization processes at its Houston, Texas, office, we interviewed the contractor’s IT
  Security Manager as well as Logistics and Property personnel. To obtain an
  understanding of Lockheed Martin’s sanitization process under its ODIN contract with
  Johnson, we interviewed Johnson’s contracting officer, the contracting officer’s technical
  representative, and the contractor’s Project Manager. We also observed Johnson’s and
  USA’s sanitization areas and equipment.

  To obtain an understanding of the IT sanitization process at Ames, we interviewed
  personnel in Center Operations, including the Property Disposal Officer, Computer
  Security Official, Deputy Chief of Protective Services, a security specialist, and a system
  administrator. In addition, we interviewed the IT Security Manager for the Information
  Technology Directorate. To obtain an understanding of the ODIN contract, we
  interviewed the contractor’s Deputy Program Manager and IT technician. In addition to
  the interviews, we observed examples of sanitized IT equipment in the property disposal
  area as well as the ODIN contractor’s sanitization area.




REPORT NO. IG-11-009                                                                            17
                                                                                     APPENDIX A



     At Langley, we interviewed the ODIN Deputy Program Manager and Langley’s Deputy
     Manager of IT Security, Property Disposal Officer, and personnel from Logistics
     Management Division and Center Operations to obtain an understanding of the processes
     and procedures for sanitizing IT equipment for disposal. We also interviewed Tessada
     contract personnel to determine their processes for removal and destruction of hardware
     (specifically, hard drives) sent to the Langley warehouse. We toured the Langley
     warehouse, the Steam Plant (where the hard drives are destroyed), and the off-site ODIN
     warehouse, where the hard drives are wiped before they are processed for donation.

     We identified and reviewed the following as applicable to the proper disposition of IT
     equipment:

        •   NASA Policy Directive (NPD) 2810.1D, “NASA Information Security Policy,”
            May 9, 2009

        •   NPR 2810.1A, “Security of Information Technology,” May 16, 2006

        •   NPD 4300.1B, “NASA Personal Property Disposal Policy,” February 19, 1999

        •   NPR 4300.1A, “NASA Personal Property Disposal Procedural Requirements,”
            July 19, 1999

        •   NASA ITS-SOP-0035, “Digital Media Sanitization,” September 15, 2008

        •   “2010 NASA Headquarters Security Awareness Training,” Course HQ-0050-10,
            Revision October 28, 2010

        •   NASA Federal Acquisition Regulation Supplement, Sections 1804 and 1852

        •   Ames Procedural Requirements 2815.2, “Information Technology (IT) Policies
            and Requirements,” February 1, 2007

        •   Ames Procedural Requirement 2815.1, “Excessing Government Owned
            Computer,” July 26, 2010

        •   Johnson Space Center Work Instruction 4300.1, “JSC Instructions for Excess and
            Disposal of Government Property,” September 28, 2009

        •   Kennedy (NASA-KSC) “Personal Property Transfer/Excess Process,”
            KDP-KSC-P-3716, October 13, 2010

        •   Langley Procedural Directive 2810.1, “Security of Information Technology,”
            April 11, 2005




18                                                                         REPORT NO. IG-11-009
APPENDIX A



      •   ODIN/Langley Research Center, “Quality Management Work Instruction 006,”
          January 12, 2010

      •   NIST Special Publication 800-88, “Guidelines for Media Sanitization,”
          September 2006

      •   NIST Special Publication 800-53, Revision 3, “Information Security,” August
          2009

      •   DOD “National Industrial Security Program Operating Manual,” 5220.22-M,
          February 28, 2006

      •   Multiple DOD memorandums related to sanitization

      •   ITAR (Code of Federal Regulations Title 22, “Foreign Relations,” Chapter 1,
          Subchapter M, Parts 120-130)

      •   Multiple USA policies and procedures related to sanitization

      •   Multiple Abacus policies and procedures related to sanitization and audits

      •   L&M Technologies Procedure 6004, “Reutilization and Disposal,” July 27, 2009

      •   Tessada Procedure 4.5.2-1, “Processing Computer Equipment for Donation,”
          March 16, 2009

  We conducted numerous meetings with NASA program office personnel involved in IT
  media security and the Space Shuttle Program transition efforts to understand their roles
  and determine responsibilities. We performed testing at Kennedy to determine whether
  Agency data remained in the hard drives of previously sanitized IT equipment. Although
  Kennedy was the only Center that we visited with procedures in place to test previously
  sanitized IT equipment, we determined that those procedures did not adequately ensure
  that the equipment was properly sanitized before disposal.

  Use of Computer-Processed Data. We did not use computer-processed data to perform
  this audit.

  Review of Internal Controls. We reviewed internal controls for NASA’s IT equipment
  disposition and sanitization processes. The control weaknesses we identified are discussed in
  this report. Our recommendations, if implemented, will correct the identified control
  weaknesses.




REPORT NO. IG-11-009                                                                              19
                                                                                         APPENDIX A



Prior Coverage

     During the last 5 years, the Government Accountability Office (GAO) has issued two
     reports of particular relevance to the subject of this report. Unrestricted reports can be
     accessed over the Internet at http://www.gao.gov (GAO).

     “NASA: Agency Faces Challenges Defining Scope and Costs of Space Shuttle Transition
     and Retirement” (GAO-08-1096, September 2008)

     “Property Management: Lack of Accountability and Weak Internal Controls Leave NASA
     Equipment Vulnerable to Loss, Theft, and Misuse” (GAO-07-432, June 2007)




20                                                                            REPORT NO. IG-11-009
APPENDIX B




                                                      NASA POLICIES AND BEST
                                                          PRACTICE GUIDANCE


  NPR 2810.1A, “Security of Information Technology,” May 16, 2006. This policy
  establishes the procedures and requirements of the NASA Information Technology
  Security Program and provides direction designed to ensure that safeguards for the
  protection of the confidentiality, integrity, and availability of unclassified IT resources are
  integrated into and support NASA's missions, functional lines of business, and
  infrastructure based on risk-managed, cost-effective IT security and information security
  principles and practices. It applies to all NASA employees, NASA support service
  contractors, NASA IT resources, and in NASA contracts and requires that any IT resource
  in or behind the NASA assigned Internet Protocol address space to follow NASA and
  Center policies and requirements

  NPR 4300.1A, “NASA Personal Property Disposal Procedural Requirements
  (Revalidated 2/17/06 with Change 1),” July 19, 1999. This policy offers procedural
  guidance to NASA Centers for the utilization and disposal management of NASA-owned
  excess, surplus, and exchange/sale personal property. The policy applies to NASA
  Headquarters and NASA Centers and other NASA contractors to the extent specified in
  contracts and to NASA-owned personal property wherever located.

  NASA Standard Operating Procedure, ITS-SOP-0035, “Digital Media Sanitization,”
  September 15, 2008. The purpose of this Standard Operating Procedure is to protect
  NASA information and to ensure that there is no accidental leakage and institutes a
  procedure for sanitizing electronic storage devices. Any electronic storage device that has
  ever contained NASA information, even for a brief period, must be sanitized before it can
  be reassigned, transferred, or discarded. This Procedure applies to all information system
  owners, who are required to follow these procedures from the creation to the disposal of
  all information that is stored on information technology systems under their control.

  NIST Special Publication 800-88, “Guidelines for Media Sanitization,” September
  2006. This guide assists organizations and system owners in making practical
  sanitization decisions based on the level of confidentiality of their information. It
  describes sanitization decision processes that can be applied universally. The objective of
  this special publication is to assist with decision making when media require disposal,
  reuse, or will be leaving the effective control of an organization. Organizations should
  develop and use local policies and procedures in conjunction with this guide to make
  effective, risk-based decisions on the ultimate sanitization and/or disposition of media
  and information.

  DOD NISPOM, 5220.22-M, February 28, 2006. It provides baseline standards for the
  protection of classified information released or disclosed to industry. It prescribes the


REPORT NO. IG-11-009                                                                                21
                                                                                       APPENDIX B



     requirements, restrictions, and other safeguards to prevent unauthorized disclosure of
     classified information. The Manual controls the authorized disclosure of classified
     information released by U.S. Government Executive Branch departments and agencies to
     their contractors.

     DOD Memorandum, “Disposition of Unclassified DoD Computer Hard Drives,”
     June 4, 2001. It specifies methods and procedures for sanitization and guidance on
     disposition of hard drives and states that 20 percent of hard drives will be examined via
     sampling.




22                                                                          REPORT NO. IG-11-009
APPENDIX C




                       MANAGEMENT COMMENTS




REPORT NO. IG-11-009                         23
                    APPENDIX C




Revised.




    24     REPORT NO. IG-11-009
APPENDIX C




                       Removed
                       reference to
                       NISPOM
                       containing
                       information
                       on random
                       sampling
                       from
                       footnote 14.




REPORT NO. IG-11-009    25
              APPENDIX C




26   REPORT NO. IG-11-009
APPENDIX D




                                                         REPORT DISTRIBUTION

National Aeronautics and Space Administration

  Administrator
  Deputy Administrator
  Chief of Staff
  Chief Information Officer
  Assistant Administrator for Strategic Infrastructure
  Director, Logistics Division
  Director, Ames Research Center
  Director, Dryden Flight Research Center
  Director, Glenn Research Center
  Director, Goddard Space Flight Center
  Director, Jet Propulsion Laboratory
  Director, Johnson Space Center
  Director, Kennedy Space Center
  Director, Langley Research Center
  Director, Marshall Space Flight Center
  Director, Stennis Space Center

Non-NASA Organizations and Individuals

  Office of Management and Budget
     Deputy Associate Director, Energy and Science Division
         Branch Chief, Science and Space Programs Branch
  Government Accountability Office
     Director, NASA Financial Management, Office of Financial Management and
        Assurance
     Director, NASA Issues, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

  Senate Committee on Appropriations
     Subcommittee on Commerce, Justice, Science, and Related Agencies
  Senate Committee on Commerce, Science, and Transportation
     Subcommittee on Science and Space
  Senate Committee on Homeland Security and Governmental Affairs




REPORT NO. IG-11-009                                                           27
                                                                               APPENDIX D



Congressional Committees and Subcommittees, Chairman and
  Ranking Member (continued)

     House Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     House Committee on Oversight and Government Reform
        Subcommittee on Government Management, Organization, and Procurement
     House Committee on Science and Technology
        Subcommittee on Investigations and Oversight
        Subcommittee on Space and Aeronautics




28                                                                REPORT NO. IG-11-009
Major Contributors to the Report:
   Raymond Tolomeo, Science and Aeronautics Research Director
   Loretta Atkinson, Project Manager
   G. Paul Johnson, Project Manager
   Julia Eggert, Lead Auditor
   Doug Orton, Lead Auditor
   Eugene Bauer, Auditor
   Nicole Frish, Auditor
   Jim Griggs, Auditor
   Jason Hensley, Auditor
   Barbara Moody, Auditor
   James Richards, Auditor
   Linda Hargrove, IT Specialist




REPORT NO. IG-11-009                                            29
                                                                                   DECEMBER 7, 2010
                                                                       REPORT No. IG-11-009




                                                                                 OFFICE OF AUDITS

                                                                 OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY11/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
